   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




December 14, 2010

TO:            Yolanda J. Butler, Ph.D.
               Acting Director
               Office of Community Services
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Nye County Health & Human Services
               (A-09-10-01012)


The attached final report provides the results of our limited scope review at Nye County Health
& Human Services. Pursuant to the American Recovery and Reinvestment Act of 2009 (P.L.
No. 111-5), the Office of Inspector General (OIG) provides oversight of covered funds to prevent
fraud, waste, and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-09-10-01012
in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
  REVIEW AT NYE COUNTY
 HEALTH & HUMAN SERVICES




                      Daniel R. Levinson
                       Inspector General

                        December 2010
                        A-09-10-01012
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. No.
105-285, to provide funds to alleviate the causes and conditions of poverty in communities.
Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Community Services, administers the CSBG program. The CSBG
program funds a State-administered network of more than 1,000 local Community Action
Agencies (CAA) that create, coordinate, and deliver programs and services to low-income
Americans. These programs address employment, education, housing, nutrition, emergency
services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. Recovery Act funds
were distributed to CAAs using the existing statutory formula.

The Nevada Department of Health and Human Services (State agency) acts as the lead agency
for purposes of carrying out State activities for the CSBG program. The State agency is
responsible for approving the State’s CAA Recovery Act grant applications and monitoring
CAAs’ compliance with program regulations. The State agency was awarded $5 million in
Recovery Act funds for Nevada’s CSBG program.

Nye County Health & Human Services (county agency), a local government agency, provides
services to low-income households throughout Nye County, Nevada. During fiscal year (FY)
2010, the State agency awarded the county agency $136,985 in CSBG funds and $186,245 in
Recovery Act funds, totaling $323,230. For FY 2010, the county agency received total Federal
grant awards of $374,230.

OBJECTIVE

Our objective was to assess the county agency’s financial viability, capacity to manage and
account for Federal funds, and capability to operate its CSBG program in accordance with
Federal regulations.

SUMMARY OF FINDING

Based on our assessment, the county agency is financially viable, has the capacity to manage and
account for Federal funds, and is capable of operating its CSBG program in accordance with
Federal regulations. However, we noted a weakness related to the composition of the board of
directors.




                                                i
RECOMMENDATION

We recommend that ACF consider the information presented in this report in assessing the
county agency’s ability to operate its CSBG program in accordance with Federal regulations and
in determining whether the county agency is appropriately managing and accounting for
Recovery Act funds.

COUNTY AGENCY COMMENTS

In written comments on our draft report, the county agency provided information on actions
taken to correct the identified weakness in the composition of the board of directors. The county
agency’s comments are included in their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Community Services Block Grant Program ..................................................1
              Nevada Department of Health and Human Services .....................................1
              Nye County Health & Human Services .........................................................1
              Requirements for Federal Grantees ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDING AND RECOMMENDATION ...........................................................................3

          COMPOSITION OF BOARD OF DIRECTORS ......................................................3

          RECOMMENDATION .............................................................................................3

          COUNTY AGENCY COMMENTS..........................................................................4

APPENDIX

          NYE COUNTY HEALTH & HUMAN SERVICES COMMENTS




                                                                    iii
                                     INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. No.
105-285 (the CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services, administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (CAA) that create, coordinate, and deliver programs and services to low-
income Americans. These programs address employment, education, housing, nutrition,
emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. Recovery Act funds
were distributed to CAAs using the existing statutory formula.

Nevada Department of Health and Human Services

The Nevada Department of Health and Human Services (State agency) acts as the lead agency
for purposes of carrying out State activities for the CSBG program. The State agency is
responsible for approving the State’s CAA Recovery Act grant applications and monitoring
CAAs’ compliance with program regulations. The State agency was awarded $5 million in
Recovery Act funds for Nevada’s CSBG program.

Nye County Health & Human Services

Nye County Health & Human Services (county agency), a local government agency, provides
services to low-income households throughout Nye County, Nevada. During fiscal year (FY)
2010, the State agency awarded the county agency $136,985 in CSBG funds and $186,245 in
Recovery Act funds, totaling $323,230. For FY 2010, the county agency received total Federal
grant awards of $374,230.

Requirements for Federal Grantees

The allowability of costs incurred by State and local governments is determined in accordance
with the provisions of 2 CFR part 225, Cost Principles for State, Local, and Indian Tribal
Governments. These Federal regulations establish principles and standards to provide a uniform
approach for determining costs and to promote effective program delivery. The CSBG Act
establishes the CSBG program and sets the requirements and guidelines for CSBG funds.




                                              1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the county agency’s financial viability, capacity to manage and
account for Federal funds, and capability to operate its CSBG program in accordance with
Federal regulations.

Scope

We conducted a limited review of the county agency’s financial viability, financial management
system, and related policies and procedures. Therefore, we did not perform an overall
assessment of the county agency’s internal control structure. Rather, we reviewed only the
internal controls that pertained directly to our objective. Our review period was FY 2010
(July 1, 2009, through June 30, 2010).

We performed our fieldwork at the county agency’s administrative office in Tonopah, Nevada, in
July 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that the county agency is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance and State guidance;

   •    reviewed the county agency’s application and implementation of the grant awards for
        Recovery Act funding;

   •    reviewed the findings related to the most recent State review of the county agency’s
        compliance with Federal and State CSBG requirements;

   •    reviewed the county agency’s policies and procedures related to the CSBG program;

   •    reviewed the county agency’s bylaws, minutes from the board of directors meetings,
        composition of the board of directors, and organizational chart;

   •    performed audit steps to assess the adequacy of the county agency’s current financial
        systems;

   •    reviewed Nye County’s audited financial statements for the periods July 1, 2006,
        through June 30, 2007; July 1, 2007, through June 30, 2008; and July 1, 2008, through
        June 30, 2009;

   •    interviewed the county agency’s senior eligibility specialist to gain an understanding of


                                                 2
       (1) the implementation of the CSBG programs funded by the Recovery Act and
       (2) Recovery Act reporting;

   •   traced information in the county agency’s Recovery Act reports to supporting
       documentation; and

   •   reviewed income information in five judgmentally selected case files.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

Based on our assessment, the county agency is financially viable, has the capacity to manage and
account for Federal funds, and is capable of operating its CSBG program in accordance with
Federal regulations. However, we noted a weakness related to the composition of the board of
directors.

COMPOSITION OF BOARD OF DIRECTORS

Section 676B(b) of the CSBG Act requires that public organizations administer the CSBG
program through a tripartite board that should be composed to ensure that no fewer than
one-third of the members are representative of low-income individuals and families in the
neighborhood served; reside in the neighborhood served; and are able to participate in the
development, planning, implementation, and evaluation of the CSBG program.

The county agency did not comply with the CSBG requirement that one-third of the tripartite
board be representative of the low-income area served. The county agency’s board of directors
serves as the tripartite board, and one of the six positions has been vacant since August 2008. At
the time of our audit, only one member was representative of the low-income area served instead
of the required two members.

RECOMMENDATION

We recommend that ACF consider the information presented in this report in assessing the
county agency’s ability to operate its CSBG program in accordance with Federal regulations and
in determining whether the county agency is appropriately managing and accounting for
Recovery Act funds.




                                                3
COUNTY AGENCY COMMENTS

In written comments on our draft report, the county agency provided information on actions
taken to correct the identified weakness in the composition of the board of directors. The county
agency’s comments are included in their entirety as the Appendix.




                                                4
APPENDIX
                                                                                                        Page 1 0[2


APPENDIX: NYE COUNTY HEALTH & HUMAN SERVICES COMMENTS 





   NYE
  COUNTY               NYE COUNTY HEALTH AND HUMAN SERVI CES
                        SffiRLEY TRUMMELL, Director Human Services




                                                                October 27, 2010



   Lori A. Ahlstrand
   Regional Inspector General
    For Audit Services
   Office ofInspector General
   Office of Audit Services, Region IX
   90 - 7'h Street, Suite 3-650
   San Francisco, CA 94103

   Re: Report Number A-09-10-01012

   Dear Ms. Ahlstrand:

         In answer to the recent draft report entitled Results ofLimited Scope Review at Nye
   County Health & Human Services, I submit the following comments to be added to this report.

           The Finding and Recommendation spoke to a weakness relating to the composition of the
   CSBG Tripartite Board and the lack of a low-income representative. Although the finding of the
   audit cannot be disputed, there are extenuating circumstances surrounding the vacancies. and the
   Board did diligently pursue the filling of the vacancies, as indicated below.

            In August 2008 one of our two low-income representatives resigned from the Board.
   Until recently our Board had only been able to meet once a quarter due to the large geographical
   area that exists in Nye County (3,d largest geographical area in the contiguous 48 states) and due
   to that fact the next meeting our Board had was in November, 2008 at which time they were
   presented a draft Notice of Vacancy for approval. The Board desired additional changes and a
   second draft was presented to them in February, 2009, however, the Board amended the notice
   again and the finalized draft was presented to them in April, 2009, at which time it was
   approved. At the same April meeting the second low income representative stated he would be
   leaving the Board as of June, 2009.

         During the following week the Notice of Vacancy was sent out to all Town Boards and
   Town Advisory Councils within Nye County as well as to some other non-profits in orBer to
                                                                                                  Page 2 0[2




advertise and fill the vacancies. At the August, 2009, meeting the Board reviewed the two
applications that had been received and voted to approve both applicants to fill the positions.

        One of the two applicants carne to the next meeting of the Board which was held on
November, 2009; however despite numerous telephonic messages as well as a written letter, the
other applicant did not contact Health and Human Services or the Board and never took office.

       There were still no applicants as of the February, 2010 meeting. At the April, 2010,
meeting the Board asked that the position be readvertised which was done immediately.

       At the first August, 2010 meeting an application was presented to the Board; however the
Board voted to not accept the applicant for the position. A special meeting was held in August;
however there were no additional app lications and the position was to be readvertised.

        At a meeting held October, 20 10, the Board voted in a new member for the low income
position.

       The Board is now at full capacity with 2 members from each required category. The
Board also now has the capabilities of meeting both through teleconferencing and through video
conferencing which makes it easier to hold meetings more often if necessary.

       [fyou desire any additional information, please feel free to contact me at (775) 751-7094.

                                                             Sincerely,

                                                             jU1 AL"J(
                                                             Shirley S. Trummell




                   P.O.BOX 926*TONOPAH, NV 89049* (775)482-8125 

              250 N. HWY. 160, STE. 4*PAHRUMP, NV 89060*(775)751-7095 

